U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 28, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Andy Williams v. United States of America,
S.Ct. No. 20-6551

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
30, 2020, and placed on the docket on December 7, 2020. The government’s response is due on
January 6, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 5, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6551
WILLIAMS, ANDY
USA

DARRELL BERNARD FIELDS
FEDERAL DEFENDERS OF NY INC
52 DUANE STREET
10 TH FLOOR
NEW YORK, NY 10007
212-417-8745
DARRELL_FIELDS@FD.ORG

